APPENDIX TABLE OF CONTENTS
Opinions and Orders
Order of the United States Court of Appeals for
the Ninth Circuit Denying the Certificate of
Appealability (May 14, 2021).............................. la
Order of the United States District Court for the
Eastern District of California Denying
Petitioner’s Motion for a Certificate of
Appealability (March 6, 2020)..........................

2a

Order of the United States District Court for the
Eastern District of California Denying
Petitioner’s 28 U.S.C. § 2255 Petition
(January 13, 2020)................................................. 6a
Mandate of the United States Court of Appeals
for the Ninth Circuit
(September 11, 2019)........................................

24a

Memorandum Opinion of the United States Court
of Appeals for the Ninth Circuit
(June 20, 2019)...................................................... 25a

Rehearing Order
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing (September 3, 2019)........................ 28a

App.la
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT DENYING
THE CERTIFICATE OF APPEALABILITY
(MAY 14, 2021)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
KEITH FOSTER
Defen dan t-Appellan t.
No. 20-15375
D.C. Nos. l:19-cv-01754-AWI
1:15-cr-00104-AWI-SKO-1
Eastern District of California, Fresno
Before: PAEZ and CALLAHAN, Circuit Judges.
The request for a certificate of appealability
(Docket Entry No. 2) is denied because appellant has
not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

App.2a
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE EASTERN DISTRICT OF
CALIFORNIA DENYING PETITIONER'S MOTION
FOR A CERTIFICATE OF APPEALABILITY
(MARCH 6, 2020)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
UNITED STATES OF AMERICA,
Respondent,
v.
KEITH FOSTER,
Petitioner.
Case No. 1:15-CR-0104 AWI SKO-1
Before: Anthony W. ISHII, Senior District Judge.
On May 23, 2017, a jury found Petitioner guilty
of two drug conspiracy counts, one involving heroin
and one involving marijuana.
On January 13, 202, the Court denied a 28 U.S.C.
§ 2255 petition by Petitioner. See Doc. No. 331. The
Court founds [sic] that many of the issues raised by
Petitioner were precluded by an opinion by the Ninth
Circuit on direct appeal, that Petition had failed to
show that the undersigned should have recused himself,
that Petitioner failed to demonstrate any prejudicial

App.3a

attorney misconduct or ineffective assistance of counsel,
and that Petitioner had failed to identify any prejudicial
trial errors. See id.
On February 28, 2020, Petitioner filed a “motion
for correction of omission.” See Doc. No. 339. A review
of this motion shows that it is in fact a request for the
Court to issue a certificate of appealability. See id.
28 U.S.C. § 2253 provides in pertinent part:
(a) In a habeas corpus proceeding or a pro­
ceeding under section 2255 before a district
judge, the final order shall be subject to
review, on appeal, by the court of appeals for
the circuit in which the proceeding is held.
(b) There shall be no right of appeal from a
final order in a proceeding to test the validity
of a warrant to remove to another district or
place for commitment or trial a person
charged with a criminal offense against the
United States, or to test the validity of such
person’s detention pending removal proceed­
ings.
(c)
(l) Unless a circuit justice or judge issues a
certificate of appealability, an appeal may
not be taken to the court of appeals from—
(A) the final order in a habeas corpus proceed­
ing in which the detention complained of
arises out of process issued by a State
court; or
(B) the final order in a proceeding under
section 2255.
i

App.4a

(2) A certificate of appealability may issue under
paragraph (l) only if the applicant has made
a substantial showing of the denial of a con­
stitutional right.
(3) The certificate of appealability under para­
graph (l) shall indicate which specific issue
or issues satisfy the showing required by
paragraph (2).
The Supreme Court has found that a court should
issue a certificate of appealability when the petitioner
shows that jurists of reason would find it debatable
whether the petition states a valid claim of the denial
of a constitutional right and that jurists of reason
would find it debatable whether the district court was
correct in its procedural ruling. Slack v. McDaniel,
529 U.S. 473, 483-84 (2000). The requirement that the
petitioner seek a certificate of appealability is a gatekeeping mechanism that protects the Court of Appeals
from having to devote resources to frivolous issues
while at the same time affording petitioners an oppor­
tunity to persuade the Court that through full briefing
and argument the potential merit of claims may appear.
Lambright v. Stewart, 220 F.3d 1022, 1025 (9th Cir.
2000). It has been found that even the application of
an apparently controlling Ninth Circuit rule can be
debatable if it conflicts with the rules of another
circuit or there is reasonable argument of why the
Ninth Circuit should reconsider the Ninth circuit rule.
See id.
In the present case, the Court finds that Petitioner
has not made the required substantial showing of the
denial of a constitutional right to justify the issuance
of a certificate of appealability. $ee28U.S.C. § 2253(c);
Slack, 529 U.S. at 483-84. Given the opinion of the Ninth

App.5a

Circuit on direct appeal and the analysis conducted by
the Court in resolving Petitioner § 2255 petition, rea­
sonable jurists would not debate that Petitioner did
not show that he was entitled to federal habeas corpus
relief. Therefore, the Court will deny Petitioner’s request
for a certificate of appealability.
ORDER
Accordingly, IT IS HEREBY ORDERED that
Petitioner’s request for a certificate of appealability/
motion to correct omission (Doc. No. 339) is DENIED
and the Court DECLINES to issue a certificate of
appealability under 28 U.S.C. § 2253 in this matter.
IT IS SO ORDERED.

/s/ Anthony W. Ishii
Senior District Judge
Dated: March 6, 2020

App.6a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE EASTERN DISTRICT
OF CALIFORNIA DENYING PETITIONER’S
28 U.S.C. § 2255 PETITION
(JANUARY 13, 2020)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
UNITED STATES OF AMERICA,
Respondent,
v.
KEITH FOSTER,
Petitioner.
Case No. 1:15-CR-0104 AWI SKO-1
(Civil Case No. l:19-cv-1754 AWI)
Before: Anthony W. ISHII, Senior District Judge.
On May 23, 2017, a jury found Petitioner Keith
Foster (“Foster”) guilty of one count of conspiracy to
distribute and possess marijuana and one count of
conspiracy to distribute and possess heroin, both in
violation of 21 U.S.C. §§ 841(a)(1) and 846. Foster’s
conviction and sentence were affirmed by the Ninth
Circuit on direct appeal on June 20, 2019. SeeDoc. No.
327. On December 16, 2019, Foster filed a motion to
vacate his conviction and sentence under 28 U.S.C.
§ 2255, a motion for release pending adjudication of

App.7a

his § 2255 petition, and a motion to disqualify the
undersigned. See Doc. Nos. 331, 332, and 333.1 This
order addresses the § 2255 petition.2 For the reasons
that follow, Foster’s petition will be denied.
Petitioner’s Argument
Foster argues that he is entitled to relief on four
grounds. First, Foster contends that he received inef­
fective assistance from his trial counsel. Specifically,
Foster contends that his counsel: (l) failed to review
a grand jury transcript dated April 9, 2015, of FBI
Agent Reynold’s testimony; (2) failed to challenge the
indictment as duplicitous and lacking any factual or
legal basis; (3) failing to file a motion to recuse the
undersigned based on the undersigned’s approval of
wiretaps in this case; (4) failing to vigorously chal­
lenge the sufficiency of the evidence to support a drug
conspiracy; (5) failing to challenge government miscon­
duct regarding the sufficiency of the evidence to support
a drug conspiracy; (6) failing to object to improper jury
instructions; (7) failing to invoke the corpus delicti
rule; (8) failing to file a Rule 29 motion for acquittal
due to insufficient evidence; and (9) failing to conduct
basic research regarding the sufficiency of the evidence
to support a drug conspiracy and differentiating drug
conspiracies from buyer-seller relationships.

1 The motion to recuse and the motion for release have been
resolved in separate orders.
2 The Court notes that Foster’s filed his petition approximately
six months from the date the Ninth Circuit issued its opinion,
and Foster did not appeal to the Supreme Court. Therefore, the
petition is timely under 28 U.S.C. § 2255(f)(1).

App.8a

Second, Foster argues that that there was uncon­
stitutional prosecutorial misconduct. Foster argues that
the government attorneys willfully and deliberately
disregarded Ninth Circuit law regarding the sufficiency
of the evidence that is necessary to sustain a drug
conspiracy conviction. The evidence and theories presen­
ted to the jury were insufficient to support the conviction.
Further, the government utilized an indictment that
was duplicitous with respect to the two counts upon
which Foster was convicted.
Third, Foster argues that numerous trial court
errors violated his due process rights. Foster argues that
this Court willfully disregarded Ninth Circuit case
law governing the sufficiency of the evidence required
to sustain a drug conspiracy conviction, failed to properly
instruct the jury regarding the essential elements of a
drug conspiracy, and improperly failed to grant a motion
for acquittal. Further, Foster argues that the under­
signed should have disqualified himself under 28
U.S.C. § 455 because the undersigned authorized
wiretaps. In that process, the undersigned received
briefings and reviewed affidavits from law enforce­
ment and the prosecution.
Finally, Foster argues that he received ineffective
assistance of appellate counsel. Foster argues that his
appellate counsel failed to recognize that the government
never proved the existence of the drug conspiracies
that he was convicted of committing. This includes
recognizing the distinction between a buy-seller trans­
action and an actual conspiracy, as explained in United
States v. Moe, 781 F.3d 1120 (9th Cir. 2015). If appel­
late counsel had argued the Moe factors, the convic­
tions would have been vacated.

App.9a

Ninth Circuit’s Opinion
Following his conviction, Foster filed a direct appeal
with the Ninth Circuit. In affirming Foster’s conviction,
the Ninth Circuit held in relevant part:
Defendant Keith Foster . . . appeals his jury
convictions for conspiring to possess with
intent to distribute marijuana and heroin in
violation of 21 U.S.C. §§ 841(a)(1) and 846.
He contends that the evidence was insufficient,
that his counsel was ineffective, that the jury
should have been instructed on a buyer-seller
relationship, and that the court erred in deny­
ing his request to unseal juror information.
For the reasons below, we affirm.
There is sufficient evidence to support both
convictions. Foster’s phone calls and text
messages with coconspirators Rafael Guzman
and Lashon Jones sufficiently demonstrated
Foster’s role in the conspiracy to distribute
heroin. Jones relayed heroin orders from
buyers to Foster and assured Foster that
the deals would benefit both of them. Foster
discussed heroin types, prices, and meeting
times with a supplier, Guzman, and relayed
those details back to Jones. On an agreedupon date, Foster attempted to meet Guzman
to obtain the drugs, but the deal fell through
when Jones did not answer her phone.
Foster’s phone calls with his nephew Denny
sufficiently established Foster’s role in a
conspiracy to distribute marijuana. Denny
and Foster discussed marijuana quantities,

App.lOa

meeting times, and prices, and Foster repeat­
edly pressed Denny for money for Foster’s
“boy.” After later learning that Denny had
been arrested with six pounds of marijuana
in his car, Foster expressed frustration that
Denny had not asked for “cover,” and Foster
said that he would see what his “narc guys”
could do for Denny.
Although counsel arguably performed defi­
ciently by not moving for acquittal after the
government’s case in chief, Foster’s ineffective
assistance of counsel claim fails because
there was no prejudice. The evidence was
sufficient to support both convictions, so a
motion for acquittal would have been denied.
See United States v. Feldman, 853 F.2d 648,
665-66 (9th Cir. 1988) (failure to move for
acquittal cannot be the basis for a finding of
ineffective assistance if the crimes of conviction
are supported by sufficient evidence). Counsel’s
decision not to request a buyer-seller instruc­
tion appears to be the product of strategy, not
incompetence. See Strickland v. Washington,
466 U.S. 668, 689-90 (1984). The theory of
the defense was that Foster was investigating
the activities of others in his capacity as
deputy police chief. A buyer-seller instruction
would have clashed with this defense. For
similar reasons, the district court did not err
in failing to sua sponte instruct the jury on a
buyer-seller relationship. United States v.
Montgomery, 150 F.3d 983, 996 (9th Cir. 1998).
United States v. Foster, 772 F. App’x 544, 544-45 (9th
Cir. 2019)

App.lla

Legal Standard
28 U.S.C. § 2255 provides, in pertinent part: “A
prisoner in custody under sentence of a court established
by Act of Congress claiming the right to be released
upon the ground that the sentence was imposed in vio­
lation of the Constitution or laws of the United States
. . . may move the court which imposed the sentence
to vacate, set aside or correct the sentence.” Under
§ 2255, a district court must grant a prompt hearing
to a petitioner in order to determine the validity of the
petition and make findings of fact and conclusions of
law, “[u]nless the motions and the files and records of
the case conclusively show that the prisoner is entitled
to no relief....” 28 U.S.C. § 2255(b). The court may deny
a hearing if the movant’s allegations, viewed against
the record, fail to state a claim for relief or are so
palpably incredible or patently frivolous as to warrant
summary dismissal. United States v. Withers, 638 F.3d
1055, 1062-63 (9th Cir. 2011); Baumann v. United
States, 692 F.2d 565, 571 (9th Cir. 1983). A petitioner
is not required to allege facts in detail, but he “must
make factual allegations” and cannot rest on conclusory
statements. Baumann, 692 F.2d at 571; United States
v. Hearst, 638 F.2d 1190,1194 (9th Cir.1980). According­
ly, an evidentiary hearing is required if: (l) a petitioner
alleges specific facts, which, if true would entitle him
to relief; and (2) the petition, files, and record of the
case cannot conclusively show that the petitioner is
entitled to no relief. United States v. Howard, 381
F.3d 873, 877 (9th Cir. 2004).
If a petitioner filed a direct appeal prior to filing
a § 2255 petition, the Ninth Circuit has explained that
if a “criminal defendant could have raised a claim of
error on direct appeal but nonetheless failed to do so,

App.l2a

he must demonstrate both cause excusing his procedural
default, and actual prejudice resulting from the claim
of error.” United States v. Skurdal, 341 F.3d 921, 925
(9th Cir. 2003); United States v. Johnson, 988 F.2d
941, 945 (9th Cir. 1993); see also Battaglia v. United
States, 428 F.2d 957, 960 (9th Cir. 1970). Generally,
“[w]hen a defendant has raised a claim and has been
given a full and fair opportunity to litigate it on direct
appeal, that claim may not be used as basis for a
subsequent § 2255 petition.” United States v. Hayes,
231 F.3d 1132, 1139 (9th Cir. 2000); see United States
v. Redd, 759 F.2d 699, 701 (9th Cir. 1985); Battaglia,
428 F.2d at 960; see also United States v. Jingles, 702
F.3d 494, 498-500 (9th Cir. 2012).
Discussion
Initially, many of Foster’s claims are based on his
contention that there was insufficient evidence to con­
vict him of a drug conspiracy under 21 U.S.C. §§ 841
and 846. This premise forms part of each of the four
grounds for relief identified in the petition. However,
as clearly shown above, the Ninth Circuit held that
there was sufficient evidence to support both drug
conspiracy convictions. See Foster, 772 F. App’x at 54445. Because the issue was directly raised in and rejected
by the Ninth Circuit, Foster cannot use insufficiency
of the evidence as a basis for relief in this § 2255
petition. See Jingles, 702 F.3d at 498-500; Hayes, 231
F.3d at 1139; Redd, 759 F.2d at 701; Battaglia, 428
F.2d at 960.
Part and parcel with Foster’s argument regarding
insufficiency of the evidence is the contention that, at
most, the government merely demonstrated a buyseller relationship and not a drug conspiracy. The Ninth

App.l3a

Circuit has held that under the “buyer-seller rule,” a
conspiracy cannot be based solely on the purchase of
an unlawful substance. See Moe, 781 F.3d at 1123.
However, as clearly shown above, the Ninth Circuit
expressly addressed the failure to include a “buyerseller” instruction in this case. The Ninth Circuit held
that because Foster theory of the case was that he was
conducting investigatory activities, a “buyer-seller” in­
struction would have clashed with that theory. Foster,
772 F. App’x at 545. Under those circumstances, this
Court did not err in addressing “buyer-seller” issues
or sua sponte instructing the jury with Ninth Circuit
Model Instruction 9.19A “Buyer-Seller Relationship,”
and Foster did not receive ineffective assistance from
trial counsel by the failure to address the rule or
expressly requesting Ninth Circuit Model Instruction
9.19A. See id. Because the “buyer-seller” jury instruc­
tion issue was directly raised in and rejected by the
Ninth Circuit as inapplicable given the defensive
theory pursued, Foster cannot rely on application of
the buyer-seller rule as a basis for relief in this § 2255
petition. See Jingles, 702 F.3d at 498-500; Hayes, 231
F.3d at 1139; Redd, 759 F.2d at 701; Battaglia, 428
F.2d at 960.
Therefore, most of Foster’s contentions in this peti­
tion are foreclosed by the Ninth Circuit’s opinion.
Specifically, under the first ground of relief for ineffective
assistance of counsel, Foster is not entitled to relief for
the fourth, fifth, sixth, seventh, eighth,3 and ninth
identified deficiencies, see Doc. No. 331 at pp. 33-34,
because those deficiencies depend upon the evidence
3 Additionally, the Ninth Circuit held that trial counsel did not
render ineffective assistance of counsel by failing to move for a
Rule 29 motion.

App.l4a

being insufficient to support the conspiracy convictions
or upon some application of the “buy-seller” rule.
Under the second ground of relief for prosecutorial
misconduct, Foster is not entitled to relief based on
the government making arguments or pursuing a case
that was contrary to Ninth Circuit authority regarding
sufficiency of the evidence to support a drug conspiracy
conviction. Under the third ground of relief for trial
errors, Foster is not entitled to relief based on alleged
errors in application of Ninth Circuit authority regarding
sufficiency of the evidence or upon some application of
the ‘huy-seller” rule. Finally, because the fourth ground
for relief is based entirely on either insufficiency of the
evidence or upon some application of the “buy-seller”
rule, no relief for ineffective assistance of appellate
counsel is possible.4
The Court will address the issues that are not
precluded by the Ninth Circuit’s opinion.5

4 The Court notes that the Ninth Circuit has held that a federal
court has discretion to consider an issue that was previously
raised when there has been an intervening change in the law or
to otherwise prevent “manifest injustice.” See Walter v. United
States, 969 F.2d 814, 816 (9th Cir. 1992); Polizzi v. United States,
550 F.2d 1133, 1135 (9th Cir. 1976). Assuming that this Court
can rely on these exceptions despite the Ninth Circuit’s opinion
in the direct appeal of this case, Foster does not benefit from
either exception. There has been no change in the law regarding
sufficiency of the evidence, the “buyer-seller” rule, or the failure
to request or include an instruction that clashes with the defensive
theory pursued before a jury. Further, Foster has not demon­
strated “manifest injustice” would ensue by following the Ninth
Circuit’s opinion on direct appeal.
5 The Court notes that at several places in his petition, Foster
contends that the law of conspiracy required that the government
prove that he sold drugs and, pursuant to the sale, entered into

App.l5a

1. Ineffective Assistance of Trial Counsel
To establish a claim of ineffective assistance of
counsel, a petitioner must show that his counsel’s
performance was deficient, and that the deficiency
prejudiced the petitioner. Strickland v. Washington,
466 U.S. 668, 687 (1984); United States v. SanchezCervantes, 282 F.3d 664, 671 (9th Cir. 2002). A deficient
performance is objectively unreasonable, and courts
indulge in a strong presumption that the challenged
conduct “falls within the wide range of reasonable pro­
fessional assistance.” Strickland, 466 U.S. at 689;
United States v. Fredman, 390 F.3d 1153, 1156 (9th
Cir. 2004); Sanchez-Cervantes, 282 F.3d at 671-72. To
be prejudicial, there must be a reasonable probability
an agreement with the buyer to distribute the drugs. E.g. Doc.
No. 31 at pp. 6, 30, 43. Foster’s contention is based on a quote
from United States v. Ramirez, 714 F.3d 1134, 1140 (9th Cir.
2013): “To prove conspiracy, the government had to show more
than that Ramirez sold drugs to someone else knowing that the
buyer would later sell to others.” Foster quotes this passage but
substitutes “a defendant [e.g. Foster]” in place of “that Ramirez.”
Foster is misreading Ramirez. Prior to the cited passage,
Ramirez acknowledge what is necessary “to make out a case for
conspiracy’: “the government had to show that there was an
agreement between Ramirez and someone else to distribute
meth.” Id. The passage cited by Foster is addressing the particular
facts of that case in which Ramirez specifically sold drugs. The
point being made by Ramirez was that sale of drugs alone does
not establish a conspiracy, i.e. an agreement with someone to
distribute drugs. See id. Contrary to Foster’s petition, Ramirez
did not hold that the government, in order to prove a conspiracy,
must show that the defendant himself sold drugs and then
agreed that the buyer would distribute the drugs to others. The
elements of a drug conspiracy are found in Ninth Circuit Model
Criminal Jury Instruction 9.19, and those elements do not
require a defendant to actually sell narcotics or make an agree­
ment with a buyer.

App.l6a

that, but for counsel’s conduct, the result of the trial
would have been different. Strickland’ 466 U.S. at
694; Fredman, 390 F.3d at 1156; Sanchez-Cervantes,
282 F.3d at 672. Here, Foster has identified three
deficiencies by trial counsel that are not precluded by
the Ninth Circuit’s opinion on direct appeal.
a. Failure to Review Grand Jury Transcripts
Foster faults his attorney for allegedly not reviewing
one day of grand jury testimony from FBI Agent
Reynolds (the agent in charge of the investigation).
Foster contends that if his counsel had reviewed the
transcript, counsel would have been able to argue that
the reason the government did not call Rafael Guzman
(“Guzman”) and Denny Foster (“Denny”) was because
these individuals were informants or possible informants
of Foster’s, and the reason that Lashon Jones (Jones)
was not called was because she was not involved in
any transactions regarding heroin. Foster also contends
that counsel could have argued that Denny Foster was
out to get Foster because Foster worked for the same
police department that killed a member of the family,
Eric Foster.
Foster’s arguments are not persuasive. Counsel
did mention many if not all of the points raised by Foster,
but not necessarily through the grand jury transcript.
Particularly illustrative is the closing argument. With
respect to Denny, counsel alluded to family problems
between Denny and Foster regarding the shooting
death of Eric Foster. See Doc. No. 245 at 1129:6-16.
Counsel also pointed out that Denny had informed in
the past but did not wish to cooperate any more with
law enforcement. See id. at 1139:9-18. Counsel pointed
out that the prosecution did not call Denny. See id. at

App.l7a

1148:12-18. Counsel also pointed out that Foster had
followed policy and referred Guzman and Denny to
the Fresno Police Narcotics Unit for consideration as
confidential informants. See id. at 1156:18-25. With
respect to Guzman, counsel pointed out that he pro­
vided the text messages (not the government) that
demonstrated that Guzman was either providing
information or trying to work with the Fresno Police
Department and Foster. See id. at 1167:15-25. Counsel
noted that Guzman had a case pending against him
through the Clovis Police Department. See id. at 1169:
20-1170:2. Counsel spent considerable time explaining
several texts between Guzman and Foster that he
interpreted as Guzman trying to provide information
or attempting to aid in arranging for a drug bust. See
id. at 1176:12-1181:6. With respect to Jones, counsel
noted that the government never called her, she had
been used as an informant, she did not say that Foster
gave her narcotics “or anything like that,” and Foster
never tried to get her narcotics. See id. at 1136:171137:10. Perhaps counsel could have made his points
differently or pursued slightly different theories or
arguments. However, there is nothing before the Court
that is sufficient to rebut the strong presumption that
counsel’s “falls within the wide range of reasonable
professional assistance.” Strickland, 466 U.S. at 689;
Fredman, 390 F.3d at 1156; Sanchez-Cervantes, 282
F.3d at 671-72.
Alternatively, even if some of the points raised by
Foster were not addressed by trial counsel but could
have been if counsel had reviewed the transcript,
Foster has not shown a reasonable probability that
the result of the trial would have been different.
Foster’s petition is more or less limited to asserting

App.l8a

what counsel “should have argued.” There is an insuf­
ficient explanation of how the arguments that should
have been made would have reasonably changed the
jury’s guilty findings.
In sum, Foster has not adequately demonstrated
that trial counsel rendered ineffective assistance of
counsel in violation of the Sixth Amendment with
respect to the alleged failure to review a grand jury
transcript.
b. Failure to Challenge Indictment
Foster contends that Counts 11 and 12, the counts
of which he was convicted, were fatally duplicitous under
United States v. Ramirez-Martinez, 273 F.3d 903, 913
(9th Cir. 2001), because multiple mens reas were
alleged in those counts, which means multiple crimes
are involved. “An indictment is duplicitous where a
single count joins two or more distinct and separate
offenses.” Ramirez-Martinez, 273 F.3d at 913; see
United States v, Mancuso, 718 F.3d 780, 792 (9th Cir.
2013). In a review for duplicity, courts “solely assess
whether the indictment itself can be read to charge
only one violation in each count.” Mancuso, 718 F.3d
at 792 (quoting United States v. Martin, 4 F.3d 757,
759 (9th Cir. 1993)). If an indictment may fairly be
read “to charge but one crime in each count, it must
be allowed to stand. ...” United States v. Mastelotto,
717 F.2d 1238, 1244 (9th Cir. 1983).
Here, Count 11 alleged that Foster and Rafael
Guzman knowingly and intentionally agreed to distrib­
ute and possess with intent to distribute heroin
between December 23, 2014 and February 2, 2015, in
violation of 21 U.S.C. §§ 841(a)(1) and 846. See Doc.
No. 55. Count 12 alleged that Foster, Denny Foster,

App.l9a

Ricky Reynolds, Jennifer Donabedian, and Sarah Ybarra
knowingly and intentionally agreed to distribute and
possess with intent to distribute marijuana between
July 14, 2014 and March 26, 2015, in violation of 21
U.S.C. §§ 841(a)(1) and 846. See id.
Counts 11 and 12 allege two separate conspiracies
between separate groups of individuals over separate
time periods and involving different controlled sub­
stances. That different mens reas may be included in
the indictment (an intent to distribute and a knowing
and intentional agreement) does not change the fact
that each count is charging a single drug conspiracy.
The Court is unaware of any authority that has held
indictments charging conspiracies to distribute in
violation of 21 U.S.C. §§ 841(a)(1) and 846 are fatally
duplicitous because multiple mens reas are mentioned.
The bottom line is that Counts 11 and 12 allege single
and separate conspiracies, thus, they are not dupli­
citous. See United States v. Bauer, 84 F.3d 1549, 1560
(9th Cir. 1996) (finding a drug conspiracy indictment
was not duplicitous because it alleged a single conspi­
racy and explaining that a “single conspiracy exists,
as compared with multiple conspiracies, where there
is ‘one overall agreement’ to perform various functions
to achieve the objectives of the conspiracy.”); cf. United
States v. Steward, 16 F.3d 317, 319-20 (9th Cir. 1994)
(finding no duplicitous indictment when violations of
21 U.S.C. §§ 841(a)(1) and 846 were alleged together).
Because Counts 11 and 12 are not duplicitous, counsel
was not ineffective for failing to object the indictment
as duplicitous.

App.20a

c. Failure to Move to Disqualify Trial Judge
Foster argues that, because the undersigned
approved a number of wiretaps and wiretap extensions
and was briefed by investigators regarding the status
of the matter and theories of liability, trial counsel
should have made a motion under 28 U.S.C. §§ 455(a)
and (b)(l) for the undersigned to recuse himself.
Foster makes essentially the same argument in his
separately filed motion to recuse. See Doc. No. 333.
The undersigned has denied the motion to recuse. See
Doc. No. 335.
The Court incorporates by reference and follows
the analysis of the order denying recusal. See id. In
essence, recusal is not required because the undersigned
has no actual bias against Foster, a reasonable person
would not conclude that the undersigned’s impartiality
could be reasonably questioned, any information
obtained as part of the wiretap process is part of the
criminal case against Foster and thus, not an extra­
judicial source, and other courts have declined to hold
that § 455 requires recusal of a judge who authorized
wiretaps. See id. (citing inter alia United States v.
Giordano, 442 F.3d 30, 48 (2d Cir. 2006); Duckworth
v. Department of the Navy, 974 F.2d 1140, 1142 (9th
Cir. 1992); United States v. Jones, 801 F.2d 304, 312
(8th Cir. 1986); United States v. Winston, 613 F.2d
221, 223 (9th Cir. 1980); United States v. De CastroFont, 587 F.Supp.2d 353, 363 (D. P.R. 2008); United
States v. Nicholson, 955 F.Supp. 582, 584-85 (E.D. Va.
1997); United States v. Garramone, 374 F.Supp. 256,
258 (E.D. Pa. 1974)). Because neither § 455(a) nor
§ 455(b)(1) required (or requires) the undersigned to
recuse himself, counsel was not ineffective for failing
to raise the issue at trial.

App.21a

2. Prosecutorial Misconduct
The sole remaining bases for prosecutorial mis­
conduct involve the alleged duplicity of Counts 11 and
12. As explained above, Foster is not entitled to relief
because Counts 11 and 12 were not actually duplicitous.
Additionally, the sufficiency of an indictment, and in
particular whether a count in an indictment is fatally
duplicitous, are issues that can be raised on direct
appeal. See Mancuso, 718 F.3d at 790. Foster did not
raise the issue of prosecutorial misconduct through a
duplicitous indictment on direct appeal. Therefore,
Foster “must demonstrate both cause excusing his
procedural default, and actual prejudice resulting from
the claim of error.” Skurdal, 341 F.3d at 925; Johnson,
988 F.2d at 945; see also Battaglia, 428 F.2d at 960.
In addition to failing to show prejudice, Foster has not
shown cause that excuses his procedural default.
3. Trial Errors
Two issues are not subsumed by the Ninth
Circuit’s opinion regarding sufficiency of the evidence
and the “buyer-seller” rule: the undersigned should
have recused himself and the Court improperly
constructively amended the indictment through jury
instructions.
For the reasons explained above and in the Court’s
order on the motion to recuse, see Doc. No. 335, 28
U.S.C. § 455 did not compel the undersigned to recuse
himself.
Citing United States v. Adamson, 291 F.3d 606,
614 (9th Cir. 2002), Foster also contends that the Court’s
jury instructions improperly constructively amended
the indictment, which lessened the government’s burden

App.22a

of proof. There are several problems with Foster’s
argument. First, a constructive amendment to an indictment is an issue that can be raised on direct appeal.
See Mancuso, 718 F.3d at 791-92; Adamson, 291 F.3d
at 614. Foster did not raise this issue on direct appeal.
Therefore, Foster “must demonstrate both cause
excusing his procedural default, and actual prejudice
resulting from the claim of error.” Skurdal,, 341 F.3d
at 925; Johnson, 988 F.2d at 945; see also Battaglia,
428 F.2d at 960. Foster has not shown cause that
excuses his procedural default. Second, Foster’s point
is conclusory. Although Foster cites Adamson and
references the jury instructions, he does not explain
how the jury instructions actually amended the indict­
ment. Without more than conclusory assertions, there
is no grounds for relief. See Baumann, 692 F.2d at
571; Hearst, 638 F.2d at 1194. Third, a constructive
amendment of the indictment occurs when “the defend­
ant is charged with one crime but, in effect, is tried for
another crime.” Mancuso, 718 F.3d at 792. The Ninth
Circuit has found improper constructive amendments
where the complex of facts presented at trial differ
distinctly from those set forth in the indictment, or
where the crime charged in the indictment was sub­
stantially altered at trial such that it cannot be known
whether the grand jury would have indicted for the
crime proved at trial. See Mancuso, 718 F.3d at 792;
Adamson, 291 F.3d at 615. The Court has reviewed
the jury instructions and Counts 11 and 12 of the
indictment. The instructions and the indictment are
consistent and no constructive amendment is apparent.
Cf. Doc. No. 55 at ECF p. 5 with Doc. No. 281 at ECF
pp. 19-22.

App.23a

Therefore, Foster has not shown that he is entitled
to relief for “trial errors.”
Conclusion
Most of the issues raised in Foster’s petition are
precluded by the Ninth Circuit’s opinion on direct
appeal. For those issues that are not precluded, Foster
has not demonstrated a constitutional error, prejudice,
or both occurred. Thus, he is not entitled to relief
under § 2255.
ORDER
Accordingly, IT IS HEREBY ORDERED that
petitioner’s 28 U.S.C. § 2255 petition (Doc. No. 331) is
DENIED.
IT IS SO ORDERED.

/s/ Anthony W. Ishii
Senior District Judge
Dated: January 13, 2020

App.24a
MANDATE OF THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT
(SEPTEMBER 11, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
KEITH FOSTER,
Defendan t-Appellan t.
No. 17-10496
D.C. No. 1:15-cr-00104-AWI-SKO-1
U.S. District Court for Eastern California, Fresno
The judgment of this Court, entered June 20, 2019,
takes effect this date. This constitutes the formal
mandate of this Court issued pursuant to Rule 41(a)
of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Nixon Antonio Callejas Morales
Deputy Clerk
Ninth Circuit Rule 27-7

App.25a

MEMORANDUM OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
(JUNE 20, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plain tiff-Appellee,
v.
KEITH FOSTER,
Defendan t-Appellan t.
No. 17-10496
D.C. No. 1:15-cr-00104-AWI-SKO-l
Appeal from the United States District Court
for the Eastern District of California
Anthony W. Ishii, District Judge, Presiding
Before: SCHROEDER and M. SMITH, Circuit
Judges, and RAYES,** District Judge.
Defendant Keith Foster, a former Deputy Police
Chief from the Fresno Police Department, appeals his
jury convictions for conspiring to possess with intent
** This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App.26a

to distribute marijuana and heroin in violation of 21
U.S.C. §§ 841(a)(1) and 846. He contends that the
evidence was insufficient, that his counsel was inef­
fective, that the jury should have been instructed on a
buyer-seller relationship, and that the court erred in
denying his request to unseal juror information. For
the reasons below, we affirm.
There is sufficient evidence to support both con­
victions. Foster’s phone calls and text messages with
coconspirators Rafael Guzman and Lashon Jones suf­
ficiently demonstrated Foster’s role in the conspiracy to
distribute heroin. Jones relayed heroin orders from
buyers to Foster and assured Foster that the deals
would benefit both of them. Foster discussed heroin
types, prices, and meeting times with a supplier,
Guzman, and relayed those details back to Jones. On
an agreed-upon date, Foster attempted to meet Guzman
to obtain the drugs, but the deal fell through when
Jones did not answer her phone.
Foster’s phone calls with his nephew Denny suf­
ficiently established Foster’s role in a conspiracy to
distribute marijuana. Denny and Foster discussed
marijuana quantities, meeting times, and prices, and
Foster repeatedly pressed Denny for money for Foster’s
“boy.” After later learning that Denny had been arrested
with six pounds of marijuana in his car, Foster expressed
frustration that Denny had not asked for “cover,” and
Foster said that he would see what his “narc guys”
could do for Denny.
Although counsel arguably performed deficiently
by not moving for acquittal after the government’s
case in chief, Foster’s ineffective assistance of counsel
claim fails because there was no prejudice. The evidence
was sufficient to support both convictions, so a motion
i

App.27a

for acquittal would have been denied. See United States
v. Feldman, 853 F.2d 648, 665-66 (9th Cir. 1988) (fail­
ure to move for acquittal cannot be the basis for a
finding of ineffective assistance if the crimes of convic­
tion are supported by sufficient evidence). Counsel’s
decision not to request a buyer-seller instruction
appears to be the product of strategy, not incompetence.
See Strickland v. Washington, 466 U.S. 668, 689-90
(1984). The theory of the defense was that Foster was
investigating the activities of others in his capacity as
deputy police chief. A buyer-seller instruction would
have clashed with this defense. For similar reasons,
the district court did not err in failing to sua sponte
instruct the jury on a buyer-seller relationship. United
States v. Montgomery, 150 F.3d 983, 996 (9th Cir. 1998).
Finally, the district court did not err in denying
Foster’s motion to unseal juror information. Although
Foster may have suspected that jurors had read
prejudicial news articles, the record contains no basis
for that supposition. Speculation alone cannot overcome
the presumption of juror impartiality. See United States
v. Clardy, 540 F.2d 439, 447 (9th Cir. 1976) (finding
similar request frivolous where defendant had not
shown “that any of the jurors had seen such material”).
AFFIRMED.

App.28a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT DENYING
PETITION FOR REHEARING
(SEPTEMBER 3, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plain tiff-Appellee,
v.
KEITH FOSTER,
Defen dan t-Appellan t.
No. 17-10496
D.C. No. l:15-cr-00104-AWI-SKO-l
U.S. District Court for Eastern California, Fresno
Before: SCHROEDER and M. SMITH, Circuit
Judges, and RAYES,** District Judge.
The panel has voted to deny the petition for panel
rehearing. Judge Smith has voted to deny the petition
for rehearing en banc, and Judges Schroeder and
Rayes have so recommended.

** The Honorable Douglas L. Rayes, United States District Judge
for the District of Arizona, sitting by designation.

App.29a

The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petition for panel rehearing and petition for
rehearing en banc, Docket No. 60, are denied.

